APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Memorandum in the United States
Court of Appeals for the Ninth Circuit
(April 30, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum and Order RE: Motion
to Dismiss in the United States
District Court Eastern District of
California
(March 13, 2019) . . . . . . . . . . . . . . App. 5
Appendix C Judgment in a Civil Case in the
United States District Court Eastern
District of California
(March 13, 2019) . . . . . . . . . . . . . App. 10
Appendix D Memorandum in the United States
Court of Appeals for the Ninth Circuit
(September 7, 2018) . . . . . . . . . . App. 12
Appendix E Order RE: Motion to Dismiss in the
United States District Court Eastern
District of California
(September 19, 2017) . . . . . . . . . App. 19
Appendix F Order Denying Rehearing in the
United States Court of Appeals for the
Ninth Circuit
(June 10, 2020) . . . . . . . . . . . . . . App. 23

ii
Appendix G Complaint for Violation of Civil and
Constitutional Rights in the United
States District Court Eastern District
of California
(June 8, 2017) . . . . . . . . . . . . . . . App. 25
Appendix H First
Amended
Complaint for
Violation of Civil and Constitutional
Rights in the United States District
Court Eastern District of California
(December 10, 2018) . . . . . . . . . . App. 53
Appendix I Mandate in the United States Court of
Appeals for the Ninth Circuit
(June 18, 2020) . . . . . . . . . . . . . . App. 85

App. 1

APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-15483
D.C. No. 2:17-cv-01201-WBS-DB
[Filed April 30, 2020]
______________________________________
ROBERT MANN, Sr.; et al.,
)
)
Plaintiffs-Appellants,
)
)
and
)
)
ZACHARY MANN; WILLIAM MANN,
)
)
Plaintiffs,
)
)
v.
)
)
SACRAMENTO POLICE
)
DEPARTMENT; SAMUEL D. SOMERS, )
Jr.,
)
)
Defendants,
)
)
and
)

App. 2
JOHN C. TENNIS; et al.,

)
)
Defendants-Appellees.
)
______________________________________ )
MEMORANDUM*
Appeal from the United States District Court
for the Eastern District of California
William B. Shubb, District Judge, Presiding
Argued and Submitted April 14, 2020
San Francisco, California
Before: GOULD and CHRISTEN, Circuit Judges, and
LASNIK,** District Judge.
Plaintiffs-Appellants Robert Mann, Sr., Vern
Murphy-Mann, and Deborah Mann appeal from the
district court’s order granting Defendants-Appellees’
motion to dismiss in a § 1983 action alleging
deprivation of their First Amendment right to familial
association with their adult brother. We have
jurisdiction pursuant to 28 U.S.C. § 1291, and we
reverse and remand.1
A prior panel reviewed an interlocutory appeal in
this case and concluded that Plaintiffs’ initial
*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

**

The Honorable Robert S. Lasnik, United States District Judge
for the Western District of Washington, sitting by designation.

1

Because the parties are familiar with the facts and procedural
history of this case, we do not recite them here.

App. 3
complaint failed to adequately allege facts showing that
they had a constitutionally protected relationship with
the decedent. See Mann v. City of Sacramento, 748 F.
App’x 112 (9th Cir. 2018) (“Mann II”). In accordance
with General Order 4.3.a, the memorandum disposition
provided a concise explanation of its decision, but we
recognize that the explanation may have caused
confusion on remand.
As relevant here, Mann II concluded that Plaintiffs’
complaint did not allege facts establishing a First
Amendment right of familial or intimate association, as
recognized in Board of Directors of Rotary International
v. Rotary Club of Duarte, 481 U.S. 537, 545 (1987), and
its progeny. 748 F. App’x at 114. We stated that even if
Plaintiffs’ complaint met Rotary Club’s standard, their
intimate-association claims would be foreclosed by
Ward v. City of San Jose, 967 F.2d 280, 283–84 (9th
Cir. 1991). Ward held that a decedent’s adult siblings
lacked “a cognizable liberty interest in their brother’s
companionship” under the substantive Due Process
Clause of the Fourteenth Amendment. Id. Ward did not
discuss cohabitation. Nevertheless, because Mann II
stated that Ward barred intimate-association claims by
“adult, non-cohabitating siblings,” 748 F. App’x at 115,
the Mann II decision was interpreted on remand as
requiring that Plaintiffs plead facts demonstrating
their cohabitation with the decedent to sustain their
First Amendment intimate-association claim.
We conclude that Mann II’s statement that Ward
“would” foreclose Plaintiffs’ First Amendment claim
“even if” they had pleaded sufficient facts, see id., is
dicta. See Trent v. Valley Elec. Ass’n, Inc., 195 F.3d 534,

App. 4
537 (9th Cir. 1999). First, Ward did not create a
cohabitation requirement or purport to govern First
Amendment claims; Ward addressed only Fourteenth
Amendment intimate-association claims brought by
adult siblings. See Ward, 967 F.2d at 284.
Second, Mann II cited the Rotary Club line of cases
in addressing the sufficiency of Plaintiffs’ First
Amendment allegations, and it recognized that
cohabitation was one of several objective indicia that
courts may consider when assessing whether Plaintiffs
were deprived of their intimate-association right. 748
F. App’x at 114; see also Rotary Club of Duarte, 481
U.S. at 545; Keates v. Koile, 883 F.3d 1228, 1236 (9th
Cir. 2018); Lee v. City of Los Angeles, 250 F.3d 668,
685-86 (9th Cir. 2001); Freeman v. City of Santa Ana,
68 F.3d 1180, 1188 (9th Cir. 1995).
Finally, Mann II could not have held that Ward
forecloses Plaintiffs’ First Amendment claim because it
expressly decided that the district court could allow
Plaintiffs to amend on remand. See 748 F. App’x at 115.
If Ward controlled the First Amendment analysis,
amendment would have been futile because no
amendment could change the fact that Plaintiffs are
the decedent’s adult siblings. We therefore remand for
consideration of Plaintiffs’ First Amendment claim
under the standard set forth in Rotary Club and its
progeny. 481 U.S. at 545; Keates, 883 F.3d at 1236; Lee,
250 F.3d at 685-86.
REVERSED and REMANDED.

App. 5

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
No. 2:17-cv-01201 WBS DB
[Filed March 13, 2019]
________________________________
ROBERT MANN SR., et al.,
)
)
Plaintiffs,
)
)
v.
)
)
CITY OF SACRAMENTO, et al., )
)
Defendants.
)
________________________________ )
MEMORANDUM AND ORDER RE: MOTION
TO DISMISS
Following the Ninth Circuit’s remand of this matter
(Mann v. City of Sacramento, 748 F. App’x 112 (9th Cir.
2018)), this court gave plaintiffs leave to amend their
complaint. (See Docket No. 57.) In order to overcome
the Ninth Circuit’s holding that adult, non-cohabitating
siblings do not enjoy a constitutional right to intimate
association, plaintiffs have now amended their
complaint to set forth the facts in support of their
contention that they were “cohabitating” with decedent.
(Docket No. 59)

App. 6
The First Amended Complaint makes several
allegations about decedent’s housing situation in the
months preceding his death. First, it alleges that
decedent’s California identification card, valid until
2019, listed decedent’s residence as plaintiff Robert
Mann Sr.’s home address (FAC ¶ 31). Second, it alleges
that in the period “right up until” decedent’s death, the
plaintiffs provided decedent housing “either with
plaintiffs Robert Mann Sr. or with plaintiffs Vern
Murphy-Mann or Deborah Mann.” (Id. ¶ 33.) Third, it
alleges that decedent “kept his clothes and personal
belongings at Plaintiffs Robert Mann Sr., Vern
Murphy-Mann, and Deborah Mann’s homes and
received mail and listed their residences as his own
addresses.” (Id. ¶ 34.) Fourth, it alleges that during the
last six months of decedent’s life, decedent would “stay
out, at times for several days,” and that plaintiffs
would “search for him at places he habitually
frequented, and would bring him back home to bathe,
rest, and eat.” (Id. 35.) Finally, it alleges that despite
decedent’s absences, the plaintiffs were “in constant
contact with [him] and made sure that he knew he was
welcome in their homes.” (Id.) At the hearing on March
11, 2019, plaintiff’s counsel clarified that in the period
immediately preceding his death, decedent was
spending “the majority” of his time staying at the home
of one or another of the three plaintiffs, without further
detail.
Defendants have moved to dismiss the First
Amended Complaint under Rule 12(b)(6) of the Federal
Rules of Civil Procedure, arguing that these allegations
are insufficient to establish cohabitation and that

App. 7
plaintiffs thus may not bring this action for deprivation
of their right of intimate association with the decedent.
As plaintiffs correctly note, “there is no controlling
definition of ‘cohabitation’ in the context of the
constitutional claims at issue in this case.” (Pls.’ Mem.
in Opp. to Defs.’ Mot. to Dismiss at 5 (Docket No. 66).)
Further complicating the court’s effort to define
“cohabitation” is the fact that many treatments of the
term are concerned with “cohabitation” as a term of art
referring, specifically, to cohabitation “like a spouse.”
See e.g., United States v. Costigan, 2000 WL 898455
(D. Me. 2000), aff’d, 18 F. App’x 2 (1st Cir. 2001)
(observing that in light of the dictionary definition of
“cohabit” as “to live together in a sexual relationship
when not legally married,” the term “cohabit as a
spouse” is somewhat redundant and then proceeding to
discuss the meaning and definition of “cohabit as a
spouse.”). Those authorities are of no assistance when
considering whether parties are cohabitating siblings.
Accordingly, in the absence of controlling case law
defining “cohabitation,” in the context of this case, the
court will turn to the popular definition of the word,
which the California Supreme Court correctly noted is
“living with or together, from the Latin ‘co-’ (co[-]
signifies in general with, together, in conjunction,
jointly) and habitare, to dwell, to have possession of (a
place).” See Kusior v. Silver, 54 Cal. 2d 603, 611–12
(1960) (citations and quotations omitted). In evaluating
whether decedent cohabitated with plaintiffs in the
period immediately preceding his death, the court
assumes it should consider such factors as (1) whether
decedent spent all or most of his time residing in the

App. 8
same dwelling as any given plaintiff; (2) whether he
shared living expenses associated with a plaintiff’s
dwelling; (3) whether he had keys to a dwelling and
could come and go as he pleased; and (4) whether he
kept clothes and personal affairs in the dwelling.1
The allegations of the First Amended Complaint do
not establish any of the first three factors. Rather, the
First Amended Complaint paints decedent not as a
cohabitant but more a transient who was a frequent,
and welcome, invitee in plaintiffs’ respective homes.
Decedent would “stay out, at times for several days”
and then plaintiffs would “search for him at places he
habitually frequented and would bring him back home
to bathe, rest, and eat.” (FAC ¶ 35.)
The only other relevant factual allegation is that
decedent “kept his clothes and personal belongings at
[p]laintiffs Robert Mann Sr., Vern Murphy-Mann, and
Deborah Mann’s homes and received mail and listed

1

These factors are informed by case law applying or interpreting
the term “cohabitation.” See, e.g., Marcum v. McWhorter, 308 F.3d
635, 637 (6th Cir. 2002) (describing, offhandedly, cohabitation as
beginning on the date when two parties “rented a townhouse and
began living together” with each party “paying their share of the
costs”); United States v. Ladouceur, 578 F. App’x 430, 434 (5th Cir.
2014) (considering the definition of “cohabitation” in the context of
a federal statute that proscribed the possession of a firearm by
those subject to a domestic violence protective order, and finding
“cohabitation” where “over the span of several months, [defendant]
stayed over at [applicant’]s apartment most or often all days out of
the week; he kept clothing and personal effects there to go directly
to work in the mornings; he had a key to her apartment and was
able to come and go as he pleased; and he rarely visited an
apartment leased under his own name”).

App. 9
their residences as his own addresses.” (Id. ¶ 34.) If
accompanied by allegations that Joseph Mann spent all
or most of his time residing in one or more of plaintiffs’
homes, had a key and independent access to one or
more of plaintiffs’ homes, contributed to the
maintenance of one or more of plaintiffs’ homes, and
rarely slept outside one or more of plaintiffs’ homes,
this allegation might support a plausible inference that
decedent cohabitated with one or more of the plaintiffs.
Absent that type of accompanying allegation, however,
the mere facts that decedent stored belongings in
plaintiffs’ homes, used their addresses for mail, and
periodically bathed and rested in their homes, do not
make him plaintiffs’ “cohabitant.”
The court assumes that plaintiffs have set forth all
the available facts to support their claim of
cohabitation, and that granting further leave to amend
would be futile.
IT IS THEREFORE ORDERED that the individual
defendants’ Motion to Dismiss (Docket No. 59) be, and
the same hereby is, GRANTED. The First Amend
Complaint and action herein are hereby DISMISSED.
Dated: March 12, 2019
/s/William B. Shubb
WILLIAM B. SHUBB
UNITED STATES DISTRICT JUDGE

App. 10

APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
CASE NO: 2:17–CV–01201–WBS–DB
[Filed March 13, 2019]
___________________________________
ROBERT MANN SR., ET AL.,
)
)
v.
)
)
CITY OF SACRAMENTO, ET. AL
)
___________________________________ )
JUDGMENT IN A CIVIL CASE
XX !!

Decision by the Court. This action came to
trial or hearing before the Court. The issues
have been tried or heard and a decision has
been rendered.

IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED
IN ACCORDANCE WITH THE COURT’S
ORDER FILED ON 3/13/19
Marianne Matherly
Clerk of Court

App. 11
ENTERED: March 13, 2019
by: /s/ A. Coll
Deputy Clerk

App. 12

APPENDIX D
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-17048
D.C. No. 2:17-cv-01201-WBS-DB
[Filed September 7, 2018]
______________________________________
ROBERT MANN, Sr.; et al.,
)
)
Plaintiffs-Appellees,
)
)
v.
)
)
CITY OF SACRAMENTO; et al.,
)
)
Defendants,
)
)
and
)
)
JOHN C. TENNIS; RANDY R. LOZOYA, )
)
Defendants-Appellants.
)
______________________________________ )
MEMORANDUM*
*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App. 13
Appeal from the United States District Court
for the District of Arizona
William B. Shubb, District Judge, Presiding
Argued and submitted August 15, 2018
San Francisco, California
Before: O’SCANNLAIN and BEA, Circuit Judges, and
STEARNS,** District Judge.
Defendants-Appellants John Tennis and Randy
Lozoya (“Defendants”), police officers for the city of
Sacramento, California, appeal from the district court’s
denial of their motion to dismiss Plaintiffs’ action
under 42 U.S.C. § 1983. We have jurisdiction over this
interlocutory appeal of the district court’s denial of
qualified immunity,1 Mitchell v. Forsyth, 472 U.S. 511,
525 (1985), as well as such issues as are “inextricably
intertwined” with the qualified immunity issue, Lum v.
City of San Joaquin, 584 F. App’x 449, 450–51 (9th Cir.
2014). We review de novo the district court’s denial of
qualified immunity and the district court’s denial of
Defendants’ motion to dismiss, Dunn v. Castro, 621
F.3d 1196, 1198 (9th Cir. 2010), and we reverse.
Defendants are entitled to immunity unless (1) “the
facts that a plaintiff has alleged . . . make out a
violation of a constitutional right” and (2) “the right at
**

The Honorable Richard G. Stearns, United States District Judge
for the District of Massachusetts, sitting by designation.
1

It is immaterial, for purposes of establishing jurisdiction over this
interlocutory appeal, that the district court did not explicitly
address qualified immunity. Giebel v. Sylvester, 244 F.3d 1182,
1186 n.6 (9th Cir. 2001).

App. 14
issue was ‘clearly established’ at the time of
defendant’s alleged misconduct.”2 Pearson v. Callahan,
555 U.S. 223, 232 (2009). Here, Plaintiffs alleged that
Defendants deprived them of their constitutional rights
to association with their adult brother, Joseph Mann
(“Joseph”), by unlawfully shooting and killing him in
2016. In general, a relationship may be protected under
either the First Amendment or the Due Process Clause
of the Fourteenth Amendment. Erotic Service Provider
Legal Education & Research Project v. Gascon, 880
F.3d 450, 458 (9th Cir. 2018) (“There are two distinct
forms of freedom of association: (1) freedom of intimate
association, protected under the Substantive Due
Process Clause of the Fourteenth Amendment; and
(2) freedom of expressive association, protected under
the Freedom of Speech Clause of the First
Amendment.”), as amended, 881 F.3d 792 (9th Cir.
2018); see also Keates v. Koile, 883 F.3d 1228, 1236 (9th
Cir. 2018) (9th Cir. 2018) (“[W]e have held that claims
under both the First and Fourteenth Amendment for
unwarranted interference with the right to familial
association could survive a motion to dismiss.” (citing
Lee v. City of Los Angeles, 250 F.3d 668, 686 (9th Cir.
2001)).
Plaintiffs failed to allege a violation of their
constitutional rights to freedom of association under
any theory recognized by this court. First, Plaintiffs
have not pleaded sufficient facts to show that they and

2

Plaintiffs argue that Defendants waived any qualified immunity
defense because their argument on that issue “encompassed
merely 12[] lines of text.” Defendants’ argument, though concise,
was sufficient to raise and preserve the argument.

App. 15
Joseph shared an “expressive association” right
protected by the First Amendment. Their complaint
alleged only that they “shared a close relationship and
special bond” with Joseph, and that “[t]heir
relationships with their brother . . . presupposed deep
attachments, commitments, and distinctively personal
aspects of their lives.” See IDK, Inc. v. Clark Cty., 836
F.2d 1185, 1195 (9th Cir. 1988) (dismissing First
Amendment freedom-of-association claim where the
plaintiffs “ma[d]e no claim that expression is a
significant or necessary component of their activities”).
Nor have Plaintiffs pleaded sufficient facts to show
that any of them shared an “intimate association” right
protected under the First or Fourteenth Amendments.
Plaintiffs have not alleged specific facts sufficient to
show that any of them shared with Joseph a
relationship of a type discussed in Board of Directors of
Rotary International v. Rotary Club of Duarte, 481 U.S.
537, 545 (1987), and its progeny, see, e.g., Lee, 250 F.3d
at 685–86 (holding a mother adequately alleged a
protected First Amendment association with her son
under Rotary Club); Keates, 883 F.3d at 1228 (holding
parents have a First Amendment right of association
with their children under Lee and Rotary Club). In
Rotary Club, the Supreme Court stated as follows:
The intimate relationships to which we have
accorded constitutional protection include
marriage; the begetting and bearing of children;
child rearing and education; and cohabitation
with relatives. Of course, we have not held that
constitutional protection is restricted to
relationships among family members. We have

App. 16
emphasized that the First Amendment protects
those relationships, including family
relationships, that presuppose “deep
attachments and commitments to the
necessarily few other individuals with whom one
shares not only a special community of thoughts,
experiences, and beliefs but also distinctively
personal aspects of one’s life.” But in Roberts we
observed that “[d]etermining the limits of state
authority over an individual’s freedom to enter
into a particular association . . . unavoidably
entails a careful assessment of where that
relationship’s objective characteristics locate it
on a spectrum from the most intimate to the
most attenuated of personal attachments.” In
determining whether a particular association is
sufficiently personal or private to warrant
constitutional protection, we consider factors
such as size, purpose, selectivity, and whether
others are excluded from critical aspects of the
relationship.
Rotary Club, 481 U.S. at 545–46 (citations omitted). In
other words, relationships involving marriage, childrearing, or cohabitation are protected by the First
Amendment, and other relationships, “including family
relationships,” may also be protected to the extent that
the “objective characteristics” of the relationship (i.e.
“factors such as size, purpose, selectivity, and . . .
exclu[sivity]”) demonstrate that it is “sufficiently
personal or private to warrant constitutional
protection.” Id. Plaintiffs did not allege that their
relationships with Joseph involved marriage, child
rearing, or cohabitation, as in Lee or Keates. Nor did

App. 17
they allege specific facts about the “objective
characteristics” of their relationships with Joseph to
show that they were nonetheless the sort of
relationships that “warrant constitutional protection.”
Therefore, the complaint’s conclusory and formulaic
recitation of language from Rotary Club was not
sufficient to plead a right of intimate association
protected by the First Amendment. Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007) (“[A] plaintiff’s
obligation to provide the ‘grounds’ of his ‘entitle[ment]
to relief’ requires more than labels and conclusions,
and a formulaic recitation of the elements of a cause of
action will not do.”) (second alteration in original); see
also Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009)
(“[P]leadings that . . . are no more than conclusions[]
are not entitled to the assumption of truth.”).
Moreover, even if plaintiffs could plead sufficient
facts to satisfy the standards for intimate association
set forth in Rotary Club, relief would be foreclosed
under Ward v. City of San Jose, 967 F.2d 280 (9th Cir.
1991) (dismissing siblings’ excessive-force claim under
§ 1983). In Ward, this court held that adult, noncohabitating siblings do not “possess a cognizable
liberty interest in their brother’s companionship.” Id.
at 283–84. Because we analyze the right of intimate
association in the same manner regardless whether we
characterize it under the First or Fourteenth
Amendments, Ward necessarily rejected any argument
that adult, non-cohabitating siblings enjoy a right to
intimate association.
Because the facts alleged by Plaintiffs failed to
“make out a violation of a constitutional right,” the

App. 18
district court erred in denying Defendants’ motion to
dismiss on the basis of qualified immunity. Pearson,
555 U.S. at 232. Accordingly, we reverse the district
court’s order and remand. On remand, the district
court may consider whether to grant Plaintiffs leave to
amend their complaint.
REVERSED and REMANDED.

App. 19
______________
APPENDIX E
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
CIV. NO. 2:17-01201 WBS DB
[Filed September 19, 2017]
______________________________________
ROBERT MANN SR., VERN MURPHY- )
MANN, DEBORAH MANN, ZACHARY )
MANN, and WILLIAM MANN,
)
)
Plaintiffs,
)
)
v.
)
)
CITY OF SACRAMENTO,
)
SACRAMENTO POLICE
)
DEPARTMENT, SAMUEL D. SOMERS )
JR., JOHN C. TENNIS, and RANDY
)
R. LOZOYA,
)
)
Defendants.
)
______________________________________ )
ORDER RE: MOTION TO DISMISS
Joseph Mann (“decedent”) was shot and killed by
Sacramento Police officers John C. Tennis and Rand R.
Lozoya on July 11, 2016. Decedent’s siblings have
brought this action under 42 U.S.C. § 1983 to recover
damages for deprivation of their First Amendment

App. 20
right of association with decedent. Presently before the
court is defendants Tennis and Lozoya’s Motion to
Dismiss Plaintiffs’ Complaint under Rule 12(b)(6) of the
Federal Rules of Civil Procedure.
Plaintiffs concede that § 1983 claims for loss of
companionship under the Fourteenth Amendment Due
Process Clause are limited to parents and children. See
Ward v. City of San Jose, 967 F.2d 280, 283-84 (9th Cir.
1991). The question before the court on this motion is
whether § 1983 actions for loss of association under the
First Amendment are subject to the same limitation.
For the following reasons, the court concludes they are
not.
The only case to this court’s knowledge dealing
directly with this question is Judge Pregerson’s
decision in Graham v. County of Los Angeles, No.1005059, 2011 WL 3754749, at *2 (C.D. Cal. Aug. 25,
2017) (holding that the fiancé of decedent had standing
to bring a § 1983 claim under the Free Association
Clause of the First Amendment).
This conclusion finds support in the language of
both Supreme Court and the Ninth Circuit caselaw. In
Board of Directors of Rotary International v. Rotary
Club of Duarte, 481 U.S. 537, 545 (1987), the Supreme
Court said, “[T]he First Amendment protects those
relationships, including family relationships, that
presuppose ‘deep attachments and commitments to the
necessarily few other individuals with whom one
shares not only a special community of thoughts,
experiences, and beliefs but also distinctively personal
aspects of one’s life.’” Id. (quoting Roberts v. United
States Jaycees, 468 U.S. 609, 622 (1984).

App. 21
In IDK, Inc. v. Clark County, 836 F.2d 1185, 1194
(9th Cir. 1988), the Ninth Circuit noted that, “[d]ating
and other social associations to the extent that they are
expressive are not excluded from the safeguards of the
first amendment.” Nothing in the language of either
the Supreme Court or the Ninth Circuit suggests that
these first amendment protections are limited to the
relationship between parents and children.
This result does raise some perplexing questions.
Why, for example, would the Supreme Court go to all
the trouble in Ward to limit the right of recovery under
the Fourteenth Amendment to parents or children if
others can simply recover under the First Amendment?
How are the courts to determine who has the requisite
degree of intimacy with the decedent to assert a First
Amendment claim? These questions, however, are not
before this court today. It is sometimes said that tough
cases make bad law. Here it might more appropriately
be said that bad law makes tough cases.
For the foregoing reasons, the court cannot conclude
at this stage of the proceedings as a matter of law that
plaintiffs do not have standing to bring their § 1983
claim for deprivation of their First Amendment right of
association with decedent.
IT IS THEREFORE ORDERED that defendants’
motion to dismiss plaintiffs’ Complaint under Rule
12(b)(6) of the Federal Rules of Civil Procedure be, and
the same hereby is, DENIED.

App. 22
Dated: September 19, 2017
/s/William B. Shubb
WILLIAM B. SHUBB
UNITED STATES DISTRICT JUDGE

App. 23
______________
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-15483
D.C. No. 2:17-cv-01201-WBS-DB
Eastern District of California, Sacramento
[Filed June 10, 2020]
______________________________________
ROBERT MANN, Sr.; et al.,
)
)
Plaintiffs-Appellants,
)
)
and
)
)
ZACHARY MANN; WILLIAM MANN,
)
)
Plaintiffs,
)
)
v.
)
)
SACRAMENTO POLICE
)
DEPARTMENT; SAMUEL D.
)
SOMERS, Jr.,
)
)
Defendants,
)
)
and
)

App. 24
JOHN C. TENNIS; et al.,

)
)
Defendants-Appellees.
)
______________________________________ )
ORDER
Before: GOULD and CHRISTEN, Circuit Judges, and
LASNIK,* District Judge.
Judges Gould and Christen have voted to deny the
petition for rehearing en banc, and Judge Lasnik has so
recommended.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P.
35.
The petition for rehearing en banc is DENIED.

*

The Honorable Robert S. Lasnik, United States District Judge for
the Western District of Washington, sitting by designation.

App. 25
______________
APPENDIX G
Mark E. Merin (State Bar No. 043849)
Paul H. Masuhara (State Bar No. 289805)
LAW OFFICE OF MARK E. MERIN
1010 F Street, Suite 300
Sacramento, California 95814
Telephone: (916) 443-6911
Facsimile: (916) 447-8336
E-Mail:
mark@markmerin.com
paul@markmerin.com
Attorneys for Plaintiffs
ROBERT MANN SR., VERN MURPHY-MANN,
DEBORAH MANN, ZACHARY MANN,
and WILLIAM MANN
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
SACRAMENTO DIVISION
Case No. 2:17-cv-01201-WBS-DB
[Filed June 8, 2017]
___________________________________
ROBERT MANN SR., VERN
MURPHY-MANN, DEBORAH
MANN, ZACHARY MANN, and
WILLIAM MANN,
Plaintiffs,
vs.

)
)
)
)
)
)
)
)

App. 26
CITY OF SACRAMENTO,
SACRAMENTO POLICE
DEPARTMENT, SAMUEL D.
SOMERS JR., JOHN C. TENNIS,
and RANDY R. LOZOYA,

)
)
)
)
)
)
Defendants.
)
___________________________________ )
COMPLAINT FOR VIOLATION OF CIVIL AND
CONSTITUTIONAL RIGHTS
DEMAND FOR JURY TRIAL
INTRODUCTION
Nearly a year ago, Joseph Mann, a 51 year old
mentally ill man, was shot dead by two CITY OF
SACRAMENTO and SACRAMENTO POLICE
DEPARTMENT police officers who poured 14 rounds
into his body after twice unsuccessfully attempting to
run him over with their police car. A community outcry
demanded prosecution of the responsible officers,
accountability for the blatant violation of Joseph
Mann’s civil and constitutional rights, and a
transparent investigation. None of that has occurred
making resort to the filing of this federal complaint
necessary finally to obtain justice for Joseph Mann and
his family.
This action is brought by ROBERT MANN SR.,
VERN MURPHY-MANN, DEBORAH MANN,
ZACHARY MANN, and WILLIAM MANN, each of
whom are siblings of Joseph Mann, who was unlawfully
killed by CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT police

App. 27
officers JOHN C. TENNIS and RANDY R. LOZOYA on
July 11, 2016.
JURISDICTION & VENUE
1.
This Court has jurisdiction over the claims
asserted herein pursuant to 28 U.S.C. § 1331 (in that
they arise under the United States Constitution); 28
U.S.C. § 1343(a)(3) (in that the action is brought to
address deprivations, under color of state authority, of
rights, privileges, and immunities secured by the
United States Constitution).
2.
Venue is proper in the United State District
Court for the Eastern District of California pursuant to
28 U.S.C. § 1391(b) because the Defendants are located
in the Eastern District of California and because many
of the acts and/or omissions described herein occurred
in the Eastern District of California.
3.
Intradistrict venue is proper in the
Sacramento Division of the Eastern District of
California pursuant to E.D. Cal. L.R. 120(d) because
the claims asserted herein arise from acts and/or
omissions which occurred in the County of Sacramento,
California.
PARTIES
4.
Plaintiff ROBERT MANN SR. is a resident of
the State of California, County of Sacramento. Plaintiff
ROBERT MANN SR. is an older brother of Joseph
Mann.
5.
Plaintiff VERN MURPHY-MANN is a
resident of the State of California, County of

App. 28
Sacramento. Plaintiff VERN MURPHY-MANN is an
older sister of Joseph Mann.
6.
Plaintiff DEBORAH MANN is a resident of
the State of California, County of Sacramento. Plaintiff
DEBORAH MANN is an older sister of Joseph Mann.
7.
Plaintiff ZACHARY MANN is a resident of
the State of California, County of Sacramento. Plaintiff
ZACHARY MANN is a younger brother of Joseph
Mann.
8.
Plaintiff WILLIAM MANN is a resident of
the State of Florida, County of Palm Beach. Plaintiff
WILLIAM MANN is an older brother of Joseph Mann.
9.
Defendant CITY OF SACRAMENTO is a
“public entity” within the definition of Cal. Gov. Code
§ 811.2.
10. Defendant SACRAMENTO POLICE
DEPARTMENT is a “public entity” within the
definition of Cal. Gov. Code § 811.2.
11.
Defendant SAMUEL D. SOMERS JR. was, at
all material times herein, the Chief of Police of
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT, acting
within the scope of that agency or employment and
under color of state law. Defendant SAMUEL D.
SOMERS JR. is sued in his individual capacity.
12.
Defendant JOHN C. TENNIS is, and at all
material times herein was, a law enforcement officer
employed by Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT, acting

App. 29
within the scope of that agency or employment and
under color of state law. Defendant JOHN C. TENNIS
is sued in his individual capacity.
13.
Defendant RANDY R. LOZOYA is, and at all
material times herein was, a law enforcement officer
employed by Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT, acting
within the scope of that agency or employment and
under color of state law. Defendant RANDY R.
LOZOYA is sued in his individual capacity.
GENERAL ALLEGATIONS
14.
At all times relevant herein, all wrongful acts
described were performed under color of state law
and/or in concert with or on behalf of those acting
under the color of state law.
15.
Joseph Mann was a 51 year old black man
residing in Sacramento, California, in July 2016.
16.
Joseph Mann developed and began exhibiting
mental illness-related issues in or around 2011,
following the death of his mother.
17.
Joseph Mann was never a violent man, even
when experiencing the effects of his mental illness.
Joseph Mann never exhibited any violent tendencies or
threatened violence to himself or others.
18.
Joseph Mann shared a close relationship and
special bond with his siblings, including Plaintiffs
ROBERT MANN SR., VERN MURPHY-MANN,
DEBORAH MANN, ZACHARY MANN, and WILLIAM
MANN. Their relationships with their brother, Joseph

App. 30
Mann, presupposed deep attachments, commitments,
and distinctively personal aspects of their lives.
The Killing of Joseph Mann
19.
On July 11, 2016, Joseph Mann was
experiencing the effects of his mental health illness.
20.
Joseph Mann was near 1125 Lochbrae Road,
Sacramento, California, around 9:20 a.m.
21.
Nearby residents observed Joseph Mann
acting erratically, performing karate-style moves.
Joseph Mann’s actions were consistent with that of a
person suffering from mental illness.
22.
Two persons called 9-1-1 to report sightings
of Joseph Mann.
23.
The first caller reported that a man was
carrying a knife, which he was throwing up into the
air, and had a black gun in his waistband. The caller
later reported that the man “pulled the gun out” of his
waistband.
24.
The second caller reported that there was a
mentally ill man with a gun and a knife outside her
apartment and that there were children around. The
caller stated that the man was throwing and flipping
the knife in the air and catching it. The caller later
stated that she did not actually see a gun—rather,
another of her neighbors had told her that the man had
a gun.
25.
Joseph Mann did not have a gun and the
reports that he did were false.

App. 31
26.
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT’s police
officers, including Defendants JOHN C. TENNIS,
RANDY R. LOZOYA, were dispatched to respond to the
reports of a suspicious subject with weapons.
27.
Dispatched officers were informed that the
subject was walking towards Southgate Road.
28.
Officers Frank Reyes and Bryan Gomez
responded together in a patrol vehicle. Upon observing
Joseph Mann, officer Gomez, using the vehicle’s
loudspeaker system, commanded Joseph Mann to get
on the ground and drop the knife.
29.
Joseph Mann questioned why the officers
were confronting him. Officers Reyes and Gomez
responded that they had received reports that he was
carrying a gun. Joseph Mann denied that he had a gun.
The officers observed that Joseph Mann was not
carrying a gun in his hands and could not see a gun on
his person. The officers commanded Joseph Mann to
drop his knife.
30.
Joseph Mann walked away from the officers’
vehicle and proceeded west on Southgate Road,
towards Del Paso Boulevard.
31.
Officers Reyes and Gomez radioed that
Joseph Mann was heading towards Del Paso
Boulevard, a knife was in his right hand, that he was
not complying, and that he was very hostile.
32.
Joseph Mann reached Del Paso Boulevard.
Officer Gomez again used the loudspeaker and
commanded Joseph Mann to put his hands in the air

App. 32
and drop the knife. On information and belief, Joseph
Mann threw a metallic coffee mug near the front of
Officers Reyes and Gomez’s patrol vehicle. The officers
radioed that Joseph Mann was being extremely hostile,
was throwing stuff at them, and he still had the knife
in his hand.
33.
Joseph Mann continued walking northbound
on Del Paso Boulevard while crossing the street.
34.
Officers Benjamin Spencer and Michael
Mantsch and Sergeant Michael Poroli arrived in other
patrol vehicles.
35.
Defendants JOHN C. TENNIS and RANDY
R. LOZOYA arrived in a patrol vehicle. Defendant
TENNIS was driving and Defendant LOZOYA was in
the front passenger seat.
36.
A dash-camera recorded conversations
between Defendants TENNIS and LOZOYA inside of
their vehicle.
37.
guy.”

Defendant LOZOYA said, “Fuck. Fuck this

38.

Defendant TENNIS said, “I’m gonna hit him.”

39.
Defendant LOZOYA responds, “Okay. Go for
it. Go for it.”
40.
The dash-camera recorded Defendants
TENNIS and LOZOYA’s vehicle as it attempted to hit
Joseph Mann.

App. 33
41.
Joseph Mann narrowly escaped being hit by
the vehicle between the crosswalk at Del Paso
Boulevard and Dale Avenue.
42.
After failing to strike Joseph Mann,
Defendants TENNIS and LOZOYA’s vehicle came to an
abrupt stop facing a gate along Dale Avenue.
43.

Defendant TENNIS said, “Watch out, Randy.”

44.
Defendants TENNIS and LOZOYA’s vehicle
then backed up in reverse, and was again facing Joseph
Mann.
45.

Joseph Mann was standing on the sidewalk.

46.
Defendants TENNIS and LOZOYA’s vehicle
again accelerated towards Joseph Mann, attempting to
hit him.
47.
Joseph Mann sprinted across Del Paso
Boulevard to again avoid getting hit by the vehicle.
48.
Defendants TENNIS and LOZOYA’s vehicle
again came to a stop.
49.
Defendant TENNIS said, “We’ll get him.
We’ll get him.”
50.
Defendants TENNIS and LOZOYA exited
their vehicle and pursued Joseph Mann on foot, each
with their service pistols drawn down on Joseph Mann.
51.
A surveillance video recording from the
Stoney Inn captured events occurring thereafter.

App. 34
52.
Joseph Mann crossed back towards the
sidewalk, jogging along a string of closed storefronts on
Del Paso Boulevard.
53.
Defendants TENNIS and LOZOYA crossed
the street toward Joseph Mann, closing the distance
between them.
54.
Joseph Mann stopped jogging and pointed
with his left arm.
55.
Defendants TENNIS and LOZOYA, who were
chasing behind Joseph Mann, continued to advance
towards him.
56.
After Joseph Mann stopped and pointed with
his left arm, Defendants TENNIS and LOZOYA
immediately started shooting Joseph Mann.
57.
Defendants TENNIS and LOZOYA were
approximately 25 to 30 feet away from Joseph Mann
when they first began shooting him.
58.
Joseph Mann doubled over suddenly and
lurched back, crumpling to the ground as Defendants
TENNIS and LOZOYA continued to shoot him.
59.
Even after Joseph Mann was falling to the
ground, Defendants TENNIS and LOZOYA continued
to advance on Joseph Mann, closing the distance, and
continuing to shoot Joseph Mann.
60.
In total, Defendants TENNIS and LOZOYA
fired 18 shots at Joseph Mann, hitting him 14 times.
Defendant TENNIS fired eight times, and Defendant
LOZOYA fired 10 times.

App. 35
61.
Defendants TENNIS and LOZOYA’s decision
to shoot and kill Joseph Mann occurred less than 35
seconds after they attempted to run him over in their
vehicle.
62.
Joseph Mann died at the scene of the
shooting.
The City of Sacramento & Sacramento Police
Department’s Response
63.
On July 11, 2016, the same day as and
immediately following the Joseph Mann shooting, and
before any sufficient investigation could be conducted
or completed in connection with the shooting,
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT issued a
“Media Advisory/News Release” describing the Joseph
Mann shooting, in relevant part, as follows:
Officers continued to pursue the man who
appeared to pose a significant risk to the
community. Two additional officers arrived and
chased after the subject near the 1300 block of
Del Paso Road. The subject turned back towards
them, armed with a knife. Fearing for their lives
and the safety of the community, two officers
discharged their firearms striking the man
multiple times.
<https://www.sacpd.org/newsroom/releases/liveview.a
spx?release id=2-160711-088>.
64.
The press release’s statements were later
confirmed as false when video recordings of the
shooting confirmed that Joseph Mann never moved

App. 36
towards Defendants TENNIS and LOZOYA in a
manner that endangered anyone prior to their shooting
him to death.
65.
Defendants TENNIS and LOZOYA were put
on a three-day paid leave following the shooting, and
permitted to return to work on “modified duty” for
some unknown duration thereafter.
66.
Initially,
Defendants
CITY OF
SACRAMENTO and SACRAMENTO POLICE
DEPARTMENT refused to release any recorded footage
of the Joseph Mann shooting, despite public outcry and
demand.
67.
Later, Defendants CITY OF SACRAMENTO
and SACRAMENTO POLICE DEPARTMENT did
release three dash-cam recordings and two 9-1-1 audio
recordings related to the Joseph Mann shooting, but
only after being substantial pressured was applied by
members of the Sacramento City Council, civil rights
activists, and media outlets, including The Sacramento
Bee, which obtained from a citizen surveillance footage
showing the shooting of Joseph Mann. Defendants
CITY OF SACRAMENTO and SACRAMENTO
POLICE DEPARTMENT’s release of information
related to the shooting of Joseph Mann was only
accomplished as a means of “damage control” and in a
manner that attempted to maintain control over the
narrative of the shooting.
68.
The fallout and public backlash based on
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT’s response to
the Joseph Mann shooting, including efforts to

App. 37
withhold recordings and information related to the
shooting from the public, was followed by Defendant
SAMUEL D. SOMERS JR.’s decision to “retire” from
his position as Chief of Police in December 2016.
The Federal Litigation
69.
On August 4, 2016, William Mann Sr., as
Joseph Mann’s father on behalf of Joseph Mann and on
behalf of himself, initiated litigation against
Defendants CITY OF SACRAMENTO, JOHN C.
TENNIS, and RANDY R. LOZOYA. See Mann v. City
of Sacramento, United States District Court, Eastern
District of California, Case No. 2:16-cv-01847-WBS-DB.
70.
On February 17, 2017, the William Mann Sr.
litigation was disposed of by a Fed. R. Civ. P.
41(a)(1)(A)(ii) stipulated of dismissal, following a
settlement payment by Defendant CITY OF
SACRAMENTO in the amount of $719,000.00 to
William Mann Sr.
The Sacramento County District Attorney’s
Office’s Response
71.
Pursuant to “protocol,” the Sacramento
County District Attorney’s Office is obligated to
“conduct an independent review of all officer-involved
shooting incidents that result in injury or death, and
other uses of force by law enforcement officers resulting
in death within Sacramento County.”
72.
On January 25, 2017, the Sacramento County
District Attorney’s Office issued a memorandum
containing factual findings and conclusions in
connection with the shooting and killing of Joseph

App. 38
Mann. See <http://www.sacda.org/files/1414/8553/8646
/OIS_--_Mann.pdf>.
73.
In a false and blatantly biased memo, the
Sacramento County District Attorney’s Office reported
that Defendants TENNIS and LOZOYA were “only
approximately 15 feet away from [Joseph Mann]” when
they were “forced” to make a “rapid decision” to shoot
and kill Joseph Mann due to safety threats. The memo
failed to acknowledge or to attribute any blame to
Defendants TENNIS and LOZOYA for failing to employ
de-escalation techniques, for failing to employ less than
lethal force, and provoking the encounter that led to
their decision to kill Joseph Mann.
74.
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT accepted and
adopted the Sacramento County District Attorney’s
Office’s memo’s factual findings and conclusions in
connection with the Joseph Mann shooting.
MUNICIPAL & SUPERVISORY ALLEGATIONS
75. Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR.’s failure to adequately
train, supervise, and discipline their police force has
created a cesspool of police misconduct and abuse.
76.
Defendant SAMUEL D. SOMERS JR., acting
as Police of Chief, was a policy-making authority for
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT as it relates
to the training, supervision, and discipline of police
officers under his command, including use of excessive
force.

App. 39
77.
Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR. knew or should have known
that employees under their command, including
Defendants JOHN C. TENNIS and RANDY R.
LOZOYA, were inadequately trained, supervised, or
disciplined resulting from their inadequate policies,
customs, or practices.
78.
Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR. maintained policies,
customs, or practices deliberately indifferent or
acquiescing to, or failed to maintain policies, customs,
or practices when it was obvious that they were needed
to prevent the use of unreasonable force against
persons, particularly mentally ill persons, with whom
their employees would necessarily have contact.
79.
The presence of these policies, customs, or
practices is confirmed by the killing of Joseph Mann
and, specifically, the actions and inactions of
Defendants JOHN C. TENNIS and RANDY R.
LOZOYA. On information and belief, no re-training or
discipline has resulted or occurred where:
a)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to comply with mandatory
policies of the Commission on Peace Officer
Standards and Training, Learning Domain
37, as it pertains to approaching and
engaging with mentally ill individuals;

b)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to understand, appreciate,

App. 40
assess, and respond to irrational and noncompliant behavior commonly exhibited by
mentally ill persons in interactions with law
enforcement, without resorting to lethal
force;
c)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to appreciate the level of
threat posed by mentally ill persons who are
irrational and non-compliant, and to
recognize that there was no real threat to
themselves or others which could be used to
justify the resort to lethal force;

d)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to employ specialized
techniques, such as maintaining physical
distance (“comfort zones” or “boundaries”),
non-threatening communications, deescalation or “pulling-back,” which modify
the irrational and non-compliant behavior of
mentally ill persons, instead of resorting to
lethal force;

e)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to call for backup,
including calling and consulting for advice
and/or bringing to the scene persons trained
in crisis intervention or others trained in how
appropriately to deal with mentally ill
persons without the use of legal force, when
faced with the irrational and non-compliant
conduct of mentally ill persons; and

App. 41
f)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to utlize less than lethal
force available to them.

80. Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR. were or should have been on
notice of these policies, customs, or practices, or the
inadequacy of the policies, customs, or practices,
through multiple sources, including:
i)

Past and subsequent incidents of excessive
force utilized by Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS
JR.’s police force resulting in the filing of
lawsuits, government claims, and citizens’
complaints and the payment of settlements.
For example, in Halcomb v. City of
Sacramento, Eastern District of California,
Case No. 2:14-cv-02796-MCE-DB, three
police officers broke into the wrong residence
seeking the subject of an arrest warrant and
proceeded to use excessive force on a
protesting occupant. The case was settled for
$220,000 after it was discovered that a police
officer lied about the existence of a warrant.
See <http://www.sacbee.com/news/
local/crime/article147296244.html>. In Cain
v. City of Sacramento, Eastern District of
California, Case No. 2:17-cv-00848-JAM-DB,
a police officer grabbed, tackled, and punched
a man without justification, and without
realizing that he was being recorded. See

App. 42
<http://www.kcra.com/article/sacramento-pdofficer-beat-pedestrian-after-confrontation/
9260550>.
ii)

The multiple instances of misconduct
involving Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS
JR.’s police force, as described.

iii)

The instances of misconduct that occurred in
the open and in public by Defendants CITY
OF SACRAMENTO, SACRAMENTO
POLICE DEPARTMENT, and SAMUEL D.
SOMERS JR.’s police force, suggesting action
with impunity.

iv)

The involvement of Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS
JR.’s police force in multiple instances of
misconduct, as described above and reported
elsewhere.

81.
On information and belief, Defendants CITY
OF SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS JR. were
or should have been on notice, in particular, of
Defendants JOHN C. TENNIS’s unfitness for duty and
frequent resort to unreasonable force through multiple
sources, including:
a)

Defendant JOHN C. TENNIS’s involved in a
1998 fatal incident where a suspect, Albert
Glenn Thiel, was killed after fleeing from
police. A coroner listed “mechanical asphyxia

App. 43
due to blunt-force trauma of the neck” as the
cause of death, after reviewing the evidence
which included Defendant JOHN C.
TENNIS’s attempt to place a chokehold on
the decedent. In subsequent litigation by the
decedent family against Defendant JOHN C.
TENNIS, the matter was settled prior to
trial.
b)

Divorce proceedings wherein Defendant
JOHN C. TENNIS’s former spouse accused
him of domestic violence and child abuse.

c)

Multiple investigations of child abuse by the
Child Protective Services against Defendant
JOHN C. TENNIS.

d)

A temporary restraining order issued against
Defendant JOHN C. TENNIS by the El
Dorado County Superior Court on May 23,
2012, based on a complaint by his former
spouse. The order forbid Defendant JOHN C.
TENNIS from carrying a firearm or
ammunition. However, less than two weeks
after the order issued, Defendant SAMUEL
D. SOMERS JR., then-deputy chief of
operations, wrote a letter to a El Dorado
County Superior Court Judge, Kenneth
Melikian, informing him that possession of a
firearm was “a condition of continued
employment” for Defendant JOHN C.
TENNIS. As a result, the judge modified the
order to allow Defendant JOHN C. TENNIS
to carry a gun on the job but at no other time.

App. 44
e)

A 2014 internal affairs investigation by
Defendant SACRAMENTO POLICE
DEPARTMENT against Defendant JOHN C.
TENNIS which was resolved with a written
agreement and Defendant JOHN C. TENNIS
admitting that he was plagued by “a longterm abuse of alcohol, which interfered with
his ability to perform his duties” and
required participation in an “educational
based discipline” plan related to substance
abuse, in lieu of a 40-hour suspension
without pay for violations of department
policy. Defendant JOHN C. TENNIS was
subsequently checked into a residential
alcohol addiction treatment facility to
address his addiction to alcohol. However,
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT
not only continued to employ Defendant
JOHN C. TENNIS as a patrol officer, but
also assigned him to a beat in Del Paso
Heights, a high-crime area where officers
often find themselves in stressful
confrontations.

82.
On information and belief, additional
evidence and information related to Defendants CITY
OF SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS JR.’s
policies, customs, or practices will be sought and
obtained during the course of this litigation. Although
access to the existence or absence of internal policies,
customs, or practices, prior to discovery, is necessarily
limited, on information and belief, Defendants CITY

App. 45
OF SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS JR. have
access to and/or knowledge of past events and to
statements of internal policies, customs, or practices at
issue and, in some respects, may be in sole possession
of evidence and facts needed to support or refute these
claims.
FIRST CLAIM
Deprivation of Association
(First & Fourteenth Amendments to the
U.S. Constitution; 42 U.S.C. § 1983)
83.
The First Claim is asserted by Plaintiffs
ROBERT MANN SR., VERN MURPHY-MANN,
DEBORAH MANN, ZACHARY MANN, and WILLIAM
MANN against Defendants JOHN C. TENNIS and
RANDY R. LOZOYA.
84.
Plaintiffs ROBERT MANN SR., VERN
MURPHY-MANN, DEBORAH MANN, ZACHARY
MANN, and WILLIAM MANN reallege and incorporate
the allegations of the preceding paragraphs 1 to 82, to
the extent relevant, as if fully set forth in this Claim.
85.
Defendants JOHN C. TENNIS and RANDY
R. LOZOYA, acting or purporting to act in the
performance of their official duties as law enforcement
officers, utilized unreasonable and excessive force in
seizing and killing Joseph Mann, in violation of his
Fourth and Fourteenth Amendment rights protected by
the U.S. Constitution.

App. 46
86.
Plaintiffs ROBERT MANN SR., VERN
MURPHY-MANN, DEBORAH MANN, ZACHARY
MANN, and WILLIAM MANN shared intimate human
relationships with their brother, Joseph Mann, that
presupposed deep attachments and commitments to
the necessarily few other individuals with whom they
shared not only a special community of thoughts,
experiences, and beliefs, but also distinctively personal
aspects of their lives.
87.
Defendants JOHN C. TENNIS and RANDY
R. LOZOYA’s actions were motivated by evil motive or
intent, involved reckless or callous indifference to
Plaintiffs ROBERT MANN SR., VERN MURPHYMANN, DEBORAH MANN, ZACHARY MANN, and
WILLIAM MANN’s First and Fourteenth Amendment
rights secured by the U.S. Constitution, or were
wantonly or oppressively done.
88.
Defendants JOHN C. TENNIS and RANDY
R. LOZOYA should be immediately terminated and
their killing of Joseph Mann referred to the U.S.
Department of Justice for criminal prosecution for
violating Joseph Mann’s civil and constitutional rights.
89.
As a direct and proximate result of
Defendants JOHN C. TENNIS and RANDY R.
LOZOYA’s actions and inactions, Plaintiffs ROBERT
MANN SR., VERN MURPHY-MANN, DEBORAH
MANN, ZACHARY MANN, and WILLIAM MANN
suffered injuries entitling them to receive
compensatory and punitive damages against
Defendants JOHN C. TENNIS and RANDY R.
LOZOYA.

App. 47
WHEREFORE, Plaintiffs ROBERT MANN SR.,
VERN MURPHY-MANN, DEBORAH MANN,
ZACHARY MANN, and WILLIAM MANN pray for
relief as hereunder appears.
SECOND CLAIM
Municipal & Supervisory Liability
(First & Fourteenth Amendments to the
U.S. Constitution; 42 U.S.C. § 1983)
90.
The Second Claim is asserted by Plaintiffs
ROBERT MANN SR., VERN MURPHY–MANN,
DEBORAH MANN, ZACHARY MANN, and WILLIAM
MANN against Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR.
91.
Plaintiffs ROBERT MANN SR., VERN
MURPHY-MANN, DEBORAH MANN, ZACHARY
MANN, and WILLIAM MANN reallege and incorporate
the allegations of the preceding paragraphs 1 to 89, to
the extent relevant, as if fully set forth in this Claim.
92. Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR., acting under color of state
law and as policy-makers, maintained policies,
customs, or practices permitting or deliberately
indifferent to, or failed to maintain policies, customs, or
practices when it was obvious that they were needed to
prevent, the use of excessive force, and were the
moving force behind Defendants JOHN C. TENNIS
and RANDY R. LOZOYA’s violation of Plaintiffs
ROBERT MANN SR., VERN MURPHY-MANN,

App. 48
DEBORAH MANN, ZACHARY MANN, and WILLIAM
MANN’s First and Fourteenth Amendment rights
secured by the U.S. Constitution.
93. Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR. ratified and approved of
Defendants JOHN C. TENNIS and RANDY R.
LOZOYA decision and the basis for utilizing
unreasonable lethal force against Joseph Mann,
without justification, where they:
a)

issued a public statement the same day and
immediately after the shooting occurred that
stated that Defendants JOHN C. TENNIS
and RANDY R. LOZOYA’s actions were
justified, before sufficient investigation into
the incident had occurred;

b)

failed to disseminate and actually obstructed
public access to recordings and information
concerning Joseph Mann’s shooting;

c)

accepted and adopted, and found no reason to
disagree with, the Sacramento County
District Attorney’s Office’s findings and
conclusions that Defendants JOHN C.
TENNIS and RANDY R. LOZOYA’s actions
were lawful and appropriate;

d)

failed to find that Defendants JOHN C.
TENNIS and RANDY R. LOZOYA’s actions
were inconsistent, uncompliant, or not
conforming with Defendants CITY OF
SACRAMENTO and SACRAMENTO
POLICE DEPARTMENT policies;

App. 49
e)

failed to find that Defendants JOHN C.
TENNIS and RANDY R. LOZOYA’s actions
were inconsistent, uncompliant, or not
conforming with mandatory training
provided by the Commission on Peace Officer
Standards and Training;

f)

failed to terminate or even to reprimand,
discipline, or admonish Defendants JOHN C.
TENNIS and RANDY R. LOZOYA in
connection with Joseph Mann’s killing;
and/or

g)

failed to enact new or different policies, or to
amend existing policies, that would prevent
use of unreasonable force, specifically against
persons suffering from mental illness, in the
future.

94.
Defendant SAMUEL D. SOMERS JR.’s
actions and inactions were motivated by evil motive or
intent, involved reckless or callous indifference to
Plaintiffs ROBERT MANN SR., VERN MURPHYMANN, DEBORAH MANN, ZACHARY MANN, and
WILLIAM MANN’s First and Fourteenth Amendment
rights secured by the U.S. Constitution, or were
wantonly or oppressively done.
95.
As a direct and proximate result of
Defendants CITY OF SACRAMENTO, SACRAMENTO
POLICE DEPARTMENT, and SAMUEL D. SOMERS
JR.’s actions and inactions, Plaintiffs ROBERT MANN
SR., VERN MURPHY-MANN, DEBORAH MANN,
ZACHARY MANN, and WILLIAM MANN suffered
injuries entitling them to receive compensatory

App. 50
damages against Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS JR., and
punitive damages against Defendant SAMUEL D.
SOMERS JR.
WHEREFORE, Plaintiffs ROBERT MANN SR.,
VERN MURPHY-MANN, DEBORAH MANN,
ZACHARY MANN, and WILLIAM MANN pray for
relief as hereunder appears.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs ROBERT MANN SR.,
VERN MURPHY-MANN, DEBORAH MANN,
ZACHARY MANN, and WILLIAM MANN seek
Judgment as follows:
1.
For an award of compensatory, general, and
special damages against Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, SAMUEL D. SOMERS JR., JOHN C.
TENNIS, and RANDY R. LOZOYA, according to proof
at trial;
2.
For an award of exemplary/punitive damages
against Defendants SAMUEL D. SOMERS JR., JOHN
C. TENNIS, and RANDY R. LOZOYA, in an amount
sufficient to deter and to make an example of them,
because their actions and/or inactions, as alleged, were
motivated by evil motive or intent, involved reckless or
callous indifference to federally protected rights, or
were wantonly or oppressively done;

App. 51
3.
For an award of reasonable attorneys’ fees
and costs, pursuant to 42 U.S.C. § 1988, and any other
statute as may be applicable; and
4.
For an award of any other further relief, as
the Court deems fair, just, and equitable, including an
order directing Defendants CITY OF SACRAMENTO
and SACRAMENTO POLICE DEPARTMENT to
terminate the employment of Defendants JOHN C.
TENNIS and RANDY R. LOZOYA and referring the
killing of Joseph Mann to the U.S. Department of
Justice for prosecution of Defendants JOHN C.
TENNIS and RANDY R. LOZOYA for violation of
Joseph Mann’s civil and constitutional rights.
Dated: June 8, 2017
Respectfully Submitted,
By: /s/Mark E. Merin
Mark E. Merin
Paul H. Masuhara
LAW OFFICE OF MARK E. MERIN
1010 F Street, Suite 300
Sacramento, California 95814
Telephone: (916) 443-6911
Facsimile: (916) 447-8336
Attorneys for Plaintiffs
ROBERT MANN SR., VERN
MURPHY-MANN,
DEBORAH
MANN, ZACHARY MANN, and
WILLIAM MANN

App. 52
JURY TRIAL DEMAND
A JURY TRIAL IS DEMANDED on behalf of
Plaintiffs ROBERT MANN SR., VERN MURPHYMANN, DEBORAH MANN, ZACHARY MANN, and
WILLIAM MANN.
Dated: June 8, 2017
Respectfully Submitted,
By: /s/Mark E. Merin
Mark E. Merin
Paul H. Masuhara
LAW OFFICE OF MARK E. MERIN
1010 F Street, Suite 300
Sacramento, California 95814
Telephone: (916) 443-6911
Facsimile: (916) 447-8336
Attorneys for Plaintiffs
ROBERT MANN SR., VERN
MURPHY-MANN, DEBORAH MANN,
ZACHARY MANN, and WILLIAM
MANN

App. 53

APPENDIX H
Mark E. Merin (State Bar No. 043849)
Paul H. Masuhara (State Bar No. 289805)
LAW OFFICE OF MARK E. MERIN
1010 F Street, Suite 300
Sacramento, California 95814
Telephone: (916) 443-6911
Facsimile: (916) 447-8336
E-Mail:
mark@markmerin.com
paul@markmerin.com
Attorneys for Plaintiffs
ROBERT MANN SR., VERN MURPHY-MANN,
and DEBORAH MANN
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
SACRAMENTO DIVISION
Case No. 2:17-cv-01201-WBS-DB
[Filed December 10, 2018]
___________________________________
ROBERT MANN SR., VERN
)
MURPHY-MANN, and DEBORAH
)
MANN,
)
)
Plaintiffs,
)
)
vs.
)
)
CITY OF SACRAMENTO,
)
SACRAMENTO POLICE
)

App. 54
DEPARTMENT, SAMUEL D.
SOMERS JR., JOHN C. TENNIS,
and RANDY R. LOZOYA,

)
)
)
)
Defendants.
)
___________________________________ )
FIRST AMENDED COMPLAINT
FOR VIOLATION OF CIVIL AND
CONSTITUTIONAL RIGHTS
DEMAND FOR JURY TRIAL
INTRODUCTION
On July 11, 2016, Joseph Mann, a 51 year old
mentally ill man, was shot dead by two CITY OF
SACRAMENTO and SACRAMENTO POLICE
DEPARTMENT police officers, JOHN C. TENNIS and
RANDY R. LOZOYA , who poured 14 rounds into his
body after twice unsuccessfully attempting to run him
over with their police car. A community outcry
demanded prosecution of the responsible officers,
accountability for the blatant violation of Joseph
Mann’s civil and constitutional rights, and a
transparent investigation. None of that has occurred
making resort to the filing of this federal complaint
necessary finally to obtain justice for Joseph Mann and
his family.
This action is brought by ROBERT MANN SR.,
VERN MURPHY-MANN, and DEBORAH MANN, each
of whom is a sibling of Joseph Mann, who was
unlawfully killed by CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT police
officers on July 11, 2016.

App. 55
JURISDICTION & VENUE
1.
This Court has jurisdiction over the claims
asserted herein pursuant to 28 U.S.C. § 1331 (in that
they arise under the United States Constitution) and
§ 1343(a)(3) (in that the action is brought to address
deprivations, under color of state authority, of rights,
privileges, and immunities secured by the United
States Constitution).
2.
Venue is proper in the United State District
Court for the Eastern District of California pursuant to
28 U.S.C. § 1391(b) because the Defendants are located
in the Eastern District of California and because many
of the acts and/or omissions described herein occurred
in the Eastern District of California.
3.
Intradistrict venue is proper in the
Sacramento Division of the Eastern District of
California pursuant to E.D. Cal. L.R. 120(d) because
the claims asserted herein arise from acts and/or
omissions which occurred in the County of Sacramento,
California.
PARTIES
4.
Plaintiff ROBERT MANN SR. is a resident of
the State of California, County of Sacramento.
5.
Plaintiff VERN MURPHY-MANN is a
resident of the State of California, County of
Sacramento.
6.
Plaintiff DEBORAH MANN is a resident of
the State of California, County of Sacramento.

App. 56
7.
Defendant CITY OF SACRAMENTO is a
“public entity” within the definition of Cal. Gov. Code
§ 811.2.
8.
Defendant
SACRAMENTO POLICE
DEPARTMENT is a “public entity” within the
definition of Cal. Gov. Code § 811.2.
9.
Defendant SAMUEL D. SOMERS JR. was, at
all material times herein, the Chief of Police of
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT, acting
within the scope of that agency or employment and
under color of state law. Defendant SAMUEL D.
SOMERS JR. is sued in his individual capacity.
10.
Defendant JOHN C. TENNIS is, and at all
material times herein was, a law enforcement officer
employed by Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT, acting
within the scope of that agency or employment and
under color of state law. Defendant JOHN C. TENNIS
is sued in his individual capacity.
11.
Defendant RANDY R. LOZOYA is, and at all
material times herein was, a law enforcement officer
employed by Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT, acting
within the scope of that agency or employment and
under color of state law. Defendant RANDY R.
LOZOYA is sued in his individual capacity.

App. 57
GENERAL ALLEGATIONS
12.
At all times relevant herein, all wrongful acts
described were performed under color of state law
and/or in concert with or on behalf of those acting
under the color of state law.
Joseph Mann’s Relationships With His Siblings
13.
Joseph Mann was born in Newburgh, New
York, on July 23, 1965.
14.
Plaintiff ROBERT MANN SR. is an older
brother of Joseph Mann.
15.
Plaintiff VERN MURPHY-MANN is an older
sister of Joseph Mann.
16.
Plaintiff DEBORAH MANN is an older sister
of Joseph Mann.
17.
The Mann family siblings, consisting of three
boys and two girls, grew up as a tightknit family unit
that lived, ate, played and prayed together. The
children all went to public school in Newburgh.
18.
The Mann family were Jehovah’s Witnesses
and were very religious. The family attended church
regularly and had dinner together during which they
routinely discussed personal and religious matters.
19.
The Mann family moved from Newburgh,
New York to Sacramento, California in 1979 when
William Mann Sr.’s insurance company employer
opened an office in Sacramento and transferred him
here to staff the office.

App. 58
20.
The Mann family siblings lived together in
the same home until their parents separated around
1980.
21.
Plaintiff DEBORAH MANN then moved to
Stockton in 1980 and was joined by Joseph Mann and
his mother so that they could be close to her.
22.
Plaintiff ROBERT MANN SR. remained in
Sacramento but he and Joseph Mann visited with each
other in Stockton and in Sacramento on a weekly basis.
23.
Plaintiff ROBERT MANN SR. moved to
Stockton in 1983 and remained there until 1985.
During that time Robert lived with and saw Joseph
Mann every day.
24.
Plaintiff ROBERT MANN SR. and Joseph
Mann both moved back to Sacramento in 1985 and
Joseph Mann split his time living with Plaintiffs
ROBERT MANN SR. and VERN MURPHY-MANN in
their separate homes.
25.
In 1986, when Joseph Mann was 21, he
moved out to live on his own for the first time, but
remained in Sacramento. He frequently and regularly
visited with his siblings, including Plaintiffs ROBERT
MANN SR., VERN MURPHY-MANN, and DEBORAH
MANN.
26.
Shortly after moving into his own place,
Joseph Mann obtained employment with Raley’s where
he worked for over 18 years. Since he was unmarried
and had no children, he continued, regularly, to visit
with Plaintiffs Robert Mann, Vern Murphy-Mann and

App. 59
Deborah Mann, played with his nieces and nephews,
and regularly participated in family get-togethers.
27.
Around 1999 Joseph Mann bought his own
home and Plaintiff VERN MURPHY-MANN moved in
and lived with Joseph Mann. They cooked and ate
together. They lived together for two years until 2001.
28.
Throughout the years Joseph Mann worked
for Raley’s, he and his siblings, including Plaintiffs
ROBERT MANN SR., VERN MURPHY-MANN, and
DEBORAH MANN, remained in frequent and regular
contact, meeting at least once a week to visit or enjoy
watching T.V, playing with the children, and having
meals and barbecues together.
29.
In 2009, shortly after his mother moved back
to the ancestral community in Georgia, Joseph Mann
moved to Georgia to be close to his mom and
grandmother. He remained in Georgia until 2011,
when his mother died. Plaintiff ROBERT MANN SR.
visited Joseph Mann in Georgia at least four times.
30.
Joseph Mann developed and began exhibiting
symptoms related to mental illness in or around 2011,
following the death of his mother. Joseph Mann was
never a violent man, even when experiencing the
effects of his mental illness. Joseph Mann never
exhibited any violent tendencies or threatened violence
to himself or others.
31.
In 2012, Joseph Mann moved back to
Sacramento to be closer to his family. Joseph Mann
split his living arrangement between Plaintiffs
ROBERT MANN SR. and VERN MURPHY-MANN’s
homes and the home of his niece, Plaintiff VERN

App. 60
MURPHY-MANN’s daughter. This living arrangement
continued until 2014 at which time Plaintiff ROBERT
MANN SR. moved to Rancho Cordova and allowed
Joseph Mann to move into the home he vacated. That
house was lost to bank foreclosure in 2015, and Joseph
Mann moved back in with Plaintiff ROBERT MANN
SR. as he struggled with his mental illness and drug
addiction. Plaintiff ROBERT MANN SR. offered his
encouragement to Joseph Mann, and assisted Joseph
Mann in enrolling in NA and AA programs and even
accompanied him to the programs. As evidence of
Joseph Mann’s residence, see his California
identification card valid until 2019, whereon he showed
Plaintiff ROBERT MANN SR.’s residential address as
his own residential address, 6801 83rd Ave.,
Sacramento, CA 95828. (A copy of which is attached
hereto as “Exhibit A,” together with Plaintiff ROBERT
MANN SR.’s California driver’s license, showing the
same residential address.)
32.
Joseph Mann was occasionally hospitalized in
connection with his mental illness. His siblings would
visit him during these hospitalizations.
33.
Plaintiffs ROBERT MANN SR., VERN
MURPHY-MANN, and DEBORAH MANN supported
Joseph Mann financially, and, right up until his death,
they fed him, and provided him housing, either with
Plaintiffs ROBERT MANN SR. or with Plaintiffs
VERN MURPHY-MANN or DEBORAH MANN.
34.
Joseph Mann kept his clothes and personal
belongings at Plaintiffs ROBERT MANN SR., VERN
MURPHY-MANN, and DEBORAH MANN’s homes and

App. 61
received mail and listed their residences as his own
addresses.
35.
In the last six months of his life, Joseph
Mann was deteriorating and suffering from both
mental illness and addiction. Often, he would stay out,
at times for several days, Plaintiffs ROBERT MANN
SR., VERN MURPHY-MANN, and DEBORAH MANN
would search for him at places he habitually
frequented, and would bring him back home to bathe,
rest, and eat. Despite his absences, Plaintiffs ROBERT
MANN SR., VERN MURPHY-MANN, and DEBORAH
MANN were in constant contact with Joseph Mann and
made sure that he knew he was welcome in their
homes.
The Killing Of Joseph Mann
36.
At the time of his death, Joseph Mann was a
51 year old black man residing in Sacramento,
California.
37.
On July 11, 2016, Joseph Mann was
experiencing the effects of his mental health illness.
38.
Joseph Mann was near 1125 Lochbrae Road,
Sacramento, California, around 9:20 a.m.
39.
Nearby residents observed Joseph Mann
acting erratically, performing karate-style moves.
Joseph Mann’s actions were consistent with that of a
person suffering from mental illness.
40.
Two persons called 9-1-1 to report sightings
of Joseph Mann.

App. 62
41.
The first caller reported that a man was
carrying a knife, which he was throwing up into the
air, and had a black gun in his waistband. The caller
later reported that the man “pulled the gun out” of his
waistband.
42.
The second caller reported that there was a
mentally ill man with a gun and a knife outside her
apartment and that there were children around. The
caller stated that the man was throwing and flipping
the knife in the air and catching it. The caller later
stated that she did not actually see a gun—rather,
another of her neighbors had told her that the man had
a gun.
43.
Joseph Mann did not have a gun and the
reports that he did were false.
44.
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT’s police
officers, including Defendants JOHN C. TENNIS,
RANDY R. LOZOYA, were dispatched to respond to the
reports of a suspicious subject with weapons.
45.
Dispatched officers were informed that the
subject was walking towards Southgate Road.
46.
Officers Frank Reyes and Bryan Gomez
responded together in a patrol vehicle. Upon observing
Joseph Mann, officer Gomez, using the vehicle’s
loudspeaker system, commanded Joseph Mann to get
on the ground and drop the knife.
47.
Joseph Mann questioned why the officers
were confronting him. Officers Reyes and Gomez
responded that they had received reports that he was

App. 63
carrying a gun. Joseph Mann denied that he had a gun.
The officers observed that Joseph Mann was not
carrying a gun in his hands and could not see a gun on
his person. The officers commanded Joseph Mann to
drop his knife.
48.
Joseph Mann walked away from the officers’
vehicle and proceeded west on Southgate Road,
towards Del Paso Boulevard.
49.
Officers Reyes and Gomez radioed that
Joseph Mann was heading towards Del Paso
Boulevard, a knife was in his right hand, that he was
not complying, and that he was very hostile.
50.
Joseph Mann reached Del Paso Boulevard.
Officer Gomez again used the loudspeaker and
commanded Joseph Mann to put his hands in the air
and drop the knife. On information and belief, Joseph
Mann threw a metallic coffee mug near the front of
Officers Reyes and Gomez’s patrol vehicle. The officers
radioed that Joseph Mann was being extremely hostile,
was throwing stuff at them, and he still had the knife
in his hand.
51.
Joseph Mann continued walking northbound
on Del Paso Boulevard while crossing the street.
52.
Officers Benjamin Spencer and Michael
Mantsch and Sergeant Michael Poroli arrived in other
patrol vehicles.
53.
Defendants JOHN C. TENNIS and RANDY
R. LOZOYA arrived in a patrol vehicle. Defendant
TENNIS was driving and Defendant LOZOYA was in
the front passenger seat.

App. 64
54.
A dash-camera recorded conversations
between Defendants TENNIS and LOZOYA inside of
their vehicle.
55.
guy.”

Defendant LOZOYA said, “Fuck. Fuck this

56.

Defendant TENNIS said, “I’m gonna hit him.”

57.
Defendant LOZOYA responds, “Okay. Go for
it. Go for it.”
58.
The dash-camera recorded Defendants
TENNIS and LOZOYA’s vehicle as it attempted to hit
Joseph Mann. See <https://www.youtube.com/watch?v
=8kNYtQTxAsk>.
59.
Joseph Mann narrowly escaped being hit by
the vehicle between the crosswalk at Del Paso
Boulevard and Dale Avenue.
60.
After failing to strike Joseph Mann,
Defendants TENNIS and LOZOYA’s vehicle came to an
abrupt stop facing a gate along Dale Avenue.
61.

Defendant TENNIS said, “Watch out, Randy.”

62.
Defendants TENNIS and LOZOYA’s vehicle
then backed up in reverse, and was again facing Joseph
Mann.
63.

Joseph Mann was standing on the sidewalk.

64.
Defendants TENNIS and LOZOYA’s vehicle
again accelerated towards Joseph Mann, attempting to
hit him.

App. 65
65.
Joseph Mann sprinted across Del Paso
Boulevard to again avoid getting hit by the vehicle.
66.
Defendants TENNIS and LOZOYA’s vehicle
again came to a stop.
67.
Defendant TENNIS said, “We’ll get him.
We’ll get him.”
68.
Defendants TENNIS and LOZOYA exited
their vehicle and pursued Joseph Mann on foot, each
with their service pistols drawn down on Joseph Mann.
69.
A surveillance video recording from the
Stoney Inn captured events occurring thereafter. See
<https://www.youtube.com/watch?v=CGTb4ikWYtI>.
70.
Joseph Mann crossed back towards the
sidewalk, jogging along a string of closed storefronts on
Del Paso Boulevard.
71.
Defendants TENNIS and LOZOYA crossed
the street toward Joseph Mann, closing the distance
between them.
72.
Joseph Mann stopped jogging and pointed
with his left arm.
73.
Defendants TENNIS and LOZOYA, who were
chasing behind Joseph Mann, continued to advance
towards him.
74.
After Joseph Mann stopped and pointed with
his left arm, Defendants TENNIS and LOZOYA
immediately started shooting Joseph Mann.

App. 66
75.
Defendants TENNIS and LOZOYA were
approximately 25 to 30 feet away from Joseph Mann
when they first began shooting him.
76.
Joseph Mann doubled over suddenly and
lurched back, crumpling to the ground as Defendants
TENNIS and LOZOYA continued to shoot him.
77.
Even after Joseph Mann was falling to the
ground, Defendants TENNIS and LOZOYA continued
to advance on Joseph Mann, closing the distance, and
continuing to shoot Joseph Mann.
78.
In total, Defendants TENNIS and LOZOYA
fired 18 shots at Joseph Mann, hitting him 14 times.
Defendant TENNIS fired eight times, and Defendant
LOZOYA fired 10 times.
79.
Defendants TENNIS and LOZOYA’s decision
to shoot and kill Joseph Mann occurred less than 35
seconds after they attempted to run him over in their
vehicle.
80.
Joseph Mann died at the scene of the
shooting.
The City Of Sacramento & Sacramento Police
Department’s Response To The Killing
81.
On July 11, 2016, the same day as and
immediately following the Joseph Mann shooting, and
before any sufficient investigation could be conducted
or completed in connection with the shooting,
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT issued a

App. 67
“Media Advisory/News Release” describing the Joseph
Mann shooting, in relevant part, as follows:
Officers continued to pursue the man who
appeared to pose a significant risk to the
community. Two additional officers arrived and
chased after the subject near the 1300 block of
Del Paso Road. The subject turned back towards
them, armed with a knife. Fearing for their lives
and the safety of the community, two officers
discharged their firearms striking the man
multiple times.
<https://www.sacpd.org/newsroom/releases/liveview.a
spx?release_id=20160711-088>.
82.
The press release’s statements were later
confirmed as false when video recordings of the
shooting confirmed that Joseph Mann never moved
towards Defendants TENNIS and LOZOYA in a
manner that endangered anyone prior to their shooting
him to death.
83.
Defendants TENNIS and LOZOYA were put
on a three-day paid leave following the shooting, and
permitted to return to work on “modified duty” for
some unknown duration thereafter.
84.
Initially,
Defendants
CITY OF
SACRAMENTO and SACRAMENTO POLICE
DEPARTMENT refused to release any recorded footage
of the Joseph Mann shooting, despite public outcry and
demand.
85.
Later, Defendants CITY OF SACRAMENTO
and SACRAMENTO POLICE DEPARTMENT did

App. 68
release three dash-cam recordings and two 9-1-1 audio
recordings related to the Joseph Mann shooting, but
only after being substantial pressured was applied by
members of the Sacramento City Council, civil rights
activists, and media outlets, including The Sacramento
Bee, which obtained from a citizen surveillance footage
showing the shooting of Joseph Mann. Defendants
CITY OF SACRAMENTO and SACRAMENTO
POLICE DEPARTMENT’s release of information
related to the shooting of Joseph Mann was only
accomplished as a means of “damage control” and in a
manner that attempted to maintain control over the
narrative of the shooting.
86.
The fallout and public backlash based on
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT’s response to
the Joseph Mann shooting, including efforts to
withhold recordings and information related to the
shooting from the public, was followed by Defendant
SAMUEL D. SOMERS JR.’s decision to “retire” from
his position as Chief of Police in December 2016.
William Mann Sr.’s Federal Litigation
Related To The Killing
87.
On August 4, 2016, William Mann Sr., as
Joseph Mann’s father on behalf of Joseph Mann and on
behalf of himself, initiated litigation against
Defendants CITY OF SACRAMENTO, JOHN C.
TENNIS, and RANDY R. LOZOYA. See Mann v. City
of Sacramento, United States District Court, Eastern
District of California, Case No. 2:16-cv-01847-WBS-DB.

App. 69
88.
On February 17, 2017, the William Mann Sr.
litigation was disposed of by a Fed. R. Civ. P.
41(a)(1)(A)(ii) stipulated of dismissal, following a
settlement payment by Defendant CITY OF
SACRAMENTO in the amount of $719,000.00 to
William Mann Sr.
The Sacramento County District Attorney’s
Office’s Response To The Killing
89.
Pursuant to “protocol,” the Sacramento
County District Attorney’s Office is obligated to
“conduct an independent review of all officer-involved
shooting incidents that result in injury or death, and
other uses of force by law enforcement officers resulting
in death within Sacramento County.”
90.
On January 25, 2017, the Sacramento County
District Attorney’s Office issued a memorandum
containing factual findings and conclusions in
connection with the shooting and killing of Joseph
Mann.
See <http://www.sacda.org/files/1414/8553/
8646/OIS_--_Mann.pdf>.
91.
In a false and blatantly biased memo, the
Sacramento County District Attorney’s Office reported
that Defendants TENNIS and LOZOYA were “only
approximately 15 feet away from [Joseph Mann]” when
they were “forced” to make a “rapid decision” to shoot
and kill Joseph Mann due to safety threats. The memo
failed to acknowledge or to attribute any blame to
Defendants TENNIS and LOZOYA for failing to employ
de-escalation techniques, for failing to employ less than
lethal force, and provoking the encounter that led to
their decision to kill Joseph Mann.

App. 70
92.
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT accepted and
adopted the Sacramento County District Attorney’s
Office’s memo’s factual findings and conclusions in
connection with the Joseph Mann shooting.
MUNICIPAL & SUPERVISORY ALLEGATIONS
93. Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR.’s failure to adequately
train, supervise, and discipline their police force has
created a cesspool of police misconduct and abuse.
94.
Defendant SAMUEL D. SOMERS JR., acting
as Police of Chief, was a policy-making authority for
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT as it relates
to the training, supervision, and discipline of police
officers under his command, including use of excessive
force.
95.
Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR. knew or should have known
that employees under their command, including
Defendants JOHN C. TENNIS and RANDY R.
LOZOYA, were inadequately trained, supervised, or
disciplined resulting from their inadequate policies,
customs, or practices.
96.
Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR. maintained policies,
customs, or practices deliberately indifferent or
acquiescing to, or failed to maintain policies, customs,

App. 71
or practices when it was obvious that they were needed
to prevent the use of unreasonable force against
persons, particularly mentally ill persons, with whom
their employees would necessarily have contact.
97.
The presence of these policies, customs, or
practices is confirmed by the killing of Joseph Mann
and, specifically, the actions and inactions of
Defendants JOHN C. TENNIS and RANDY R.
LOZOYA. On information and belief, no re-training or
discipline has resulted or occurred where:
a)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to comply with mandatory
policies of the Commission on Peace Officer
Standards and Training, Learning Domain
37, as it pertains to approaching and
engaging with mentally ill individuals;

b)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to understand, appreciate,
assess, and respond to irrational and noncompliant behavior commonly exhibited by
mentally ill persons in interactions with law
enforcement, without resorting to lethal
force;

c)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to appreciate the level of
threat posed by mentally ill persons who are
irrational and non-compliant, and to
recognize that there was no real threat to
themselves or others which could be used to
justify the resort to lethal force;

App. 72
d)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to employ specialized
techniques, such as maintaining physical
distance (“comfort zones” or “boundaries”),
nonthreatening communications, deescalation or “pulling-back,” which modify
the irrational and non-compliant behavior of
mentally ill persons, instead of resorting to
lethal force;

e)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to call for backup,
including calling and consulting for advice
and/or bringing to the scene persons trained
in crisis intervention or others trained in how
appropriately to deal with mentally ill
persons without the use of legal force, when
faced with the irrational and non-compliant
conduct of mentally ill persons; and

f)

Defendants JOHN C. TENNIS and RANDY
R. LOZOYA failed to utilize less than lethal
force available to them.

98.
Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR. were or should have been on
notice of these policies, customs, or practices, or the
inadequacy of the policies, customs, or practices,
through multiple sources, including:
i)

Past and subsequent incidents of excessive
force utilized by Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS

App. 73
JR.’s police force resulting in the filing of
lawsuits, government claims, and citizens’
complaints and the payment of settlements.
For example, in Halcomb v. City of
Sacramento, Eastern District of California,
Case No. 2:14-cv-02796-MCE-DB, three
police officers broke into the wrong residence
seeking the subject of an arrest warrant and
proceeded to use excessive force on a
protesting occupant. The case was settled for
$220,000 after it was discovered that a police
officer lied about the existence of a warrant.
See http://www.sacbee.com/news/local/crime/
article147296244.html>. In Cain v. City of
Sacramento, Eastern District of California,
Case No. 2:17-cv-00848-JAM-DB, a police
officer grabbed, tackled, and punched a man
without justification, and without realizing
that he was being recorded. See
http://www.kcra.com/article/sacramento-pdofficer-beat-pedestrian-after-confrontation/
9260550>. On March 19, 2018, police officers
shot and killed unarmed and nonthreatening Stephon Clark, leading to
nationwide
protest.
See
<https://www.nytimes.com/video/us/
100000005813009/stephon-clark-killedpolice-sacramento.html>.
ii)

The multiple instances of misconduct
involving Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS
JR.’s police force, as described.

App. 74
iii)

The instances of misconduct that occurred in
the open and in public by Defendants CITY
OF SACRAMENTO, SACRAMENTO
POLICE DEPARTMENT, and SAMUEL D.
SOMERS JR.’s police force, suggesting action
with impunity.

iv)

The involvement of Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS
JR.’s police force in multiple instances of
misconduct, as described above and reported
elsewhere.

99.
On information and belief, Defendants CITY
OF SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS JR. were
or should have been on notice, in particular, of
Defendants JOHN C. TENNIS’s unfitness for duty and
frequent resort to unreasonable force through multiple
sources, including:
a)

Defendant JOHN C. TENNIS’s involved in a
1998 fatal incident where a suspect, Albert
Glenn Thiel, was killed after fleeing from
police. A coroner listed “mechanical asphyxia
due to blunt-force trauma of the neck” as the
cause of death, after reviewing the evidence
which included Defendant JOHN C.
TENNIS’s attempt to place a chokehold on
the decedent. In subsequent litigation by the
decedent family against Defendant JOHN C.
TENNIS, the matter was settled prior to
trial.

App. 75
b)

Divorce proceedings wherein Defendant
JOHN C. TENNIS’s former spouse accused
him of domestic violence and child abuse.

c)

Multiple investigations of child abuse by the
Child Protective Services against Defendant
JOHN C. TENNIS.

d)

A temporary restraining order issued against
Defendant JOHN C. TENNIS by the El
Dorado County Superior Court on May 23,
2012, based on a complaint by his former
spouse. The order forbid Defendant JOHN C.
TENNIS from carrying a firearm or
ammunition. However, less than two weeks
after the order issued, Defendant SAMUEL
D. SOMERS JR., then-deputy chief of
operations, wrote a letter to an El Dorado
County Superior Court Judge, Kenneth
Melikian, informing him that possession of a
firearm was “a condition of continued
employment” for Defendant JOHN C.
TENNIS. As a result, the judge modified the
order to allow Defendant JOHN C. TENNIS
to carry a gun on the job but at no other time.

e)

A 2014 internal affairs investigation by
Defendant SACRAMENTO POLICE
DEPARTMENT against Defendant JOHN C.
TENNIS which was resolved with a written
agreement and Defendant JOHN C. TENNIS
admitting that he was plagued by “a longterm abuse of alcohol, which interfered with
his ability to perform his duties” and
required participation in an “educational

App. 76
based discipline” plan related to substance
abuse, in lieu of a 40-hour suspension
without pay for violations of department
policy. Defendant JOHN C. TENNIS was
subsequently checked into a residential
alcohol addiction treatment facility to
address his addiction to alcohol. However,
Defendants CITY OF SACRAMENTO and
SACRAMENTO POLICE DEPARTMENT
not only continued to employ Defendant
JOHN C. TENNIS as a patrol officer, but
also assigned him to a beat in Del Paso
Heights, a high-crime area where officers
often find themselves in stressful
confrontations.
100. On information and belief, additional
evidence and information related to Defendants CITY
OF SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS JR.’s
policies, customs, or practices will be sought and
obtained during the course of this litigation. Although
access to the existence or absence of internal policies,
customs, or practices, prior to discovery, is necessarily
limited, on information and belief, Defendants CITY
OF SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS JR. have
access to and/or knowledge of past events and to
statements of internal policies, customs, or practices at
issue and, in some respects, may be in sole possession
of evidence and facts needed to support or refute these
claims.

App. 77
FIRST CLAIM
Deprivation of Association
(First and Fourteenth Amendments to the
U.S. Constitution; 42 U.S.C. § 1983)
101. The First Claim is asserted by Plaintiffs
ROBERT MANN SR., VERN MURPHY-MANN, and
DEBORAH MANN against Defendants JOHN C.
TENNIS and RANDY R. LOZOYA.
102. Plaintiffs ROBERT MANN SR., VERN
MURPHY-MANN, and DEBORAH MANN, reallege
and incorporate the allegations of the preceding
paragraphs 1 to 80, to the extent relevant, as if fully set
forth in this Claim.
103. Defendants JOHN C. TENNIS and RANDY
R. LOZOYA, acting or purporting to act in the
performance of their official duties as law enforcement
officers, utilized unreasonable and excessive force in
seizing and killing Joseph Mann, in violation of his
Fourth and Fourteenth Amendment rights protected by
the U.S. Constitution.
104. Plaintiffs ROBERT MANN SR., VERN
MURPHY-MANN, and DEBORAH MANN, shared
intimate human relationships with their brother,
Joseph Mann, that presupposed deep attachments and
commitments to the necessarily few other individuals
with whom they shared not only a special community
of thoughts, experiences, and beliefs, but also
distinctively personal aspects of their lives.

App. 78
105. Defendants JOHN C. TENNIS and RANDY
R. LOZOYA’s actions were motivated by evil motive or
intent, involved reckless or callous indifference to
Plaintiffs ROBERT MANN SR., VERN MURPHYMANN, and DEBORAH MANN’s First and Fourteenth
Amendment rights secured by the U.S. Constitution, or
were wantonly or oppressively done.
106. As a direct and proximate result of Defendants
JOHN C. TENNIS and RANDY R. LOZOYA’s actions
and inactions, Plaintiffs ROBERT MANN SR., VERN
MURPHY-MANN, and DEBORAH MANN suffered
injuries entitling them to receive compensatory and
punitive damages against Defendants JOHN C.
TENNIS and RANDY R. LOZOYA.
WHEREFORE, Plaintiffs ROBERT MANN SR.,
VERN MURPHY-MANN, and DEBORAH MANN pray
for relief as hereunder appears.
SECOND CLAIM
Municipal and Supervisory Liability
(First and Fourteenth Amendments to the
U.S. Constitution; 42 U.S.C. § 1983)
107. The Second Claim is asserted by Plaintiffs
ROBERT MANN SR., VERN MURPHY-MANN, and
DEBORAH MANN against Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS JR.
108. Plaintiffs ROBERT MANN SR., VERN
MURPHY-MANN, and DEBORAH MANN reallege and
incorporate the allegations of the preceding paragraphs

App. 79
1 to 106, to the extent relevant, as if fully set forth in
this Claim.
109. Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR., acting under color of state
law and as policy-makers, maintained policies,
customs, or practices permitting or deliberately
indifferent to, or failed to maintain policies, customs, or
practices when it was obvious that they were needed to
prevent, the use of excessive force, and were the
moving force behind Defendants JOHN C. TENNIS
and RANDY R. LOZOYA’s violation of Plaintiffs
ROBERT MANN SR., VERN MURPHY-MANN, and
DEBORAH MANN’s First and Fourteenth Amendment
rights secured by the U.S. Constitution.
110. Defendants CITY OF SACRAMENTO,
SACRAMENTO POLICE DEPARTMENT, and
SAMUEL D. SOMERS JR. ratified and approved of
Defendants JOHN C. TENNIS and RANDY R.
LOZOYA decision and the basis for utilizing
unreasonable lethal force against Joseph Mann,
without justification, where they:
a)

issued a public statement the same day and
immediately after the shooting occurred that
stated that Defendants JOHN C. TENNIS
and RANDY R. LOZOYA’s actions were
justified, before sufficient investigation into
the incident had occurred;

b)

failed to disseminate and actually obstructed
public access to recordings and information
concerning Joseph Mann’s shooting;

App. 80
c)

accepted and adopted, and found no reason to
disagree with, the Sacramento County
District Attorney’s Office’s findings and
conclusions that Defendants JOHN C.
TENNIS and RANDY R. LOZOYA’s actions
were lawful and appropriate;

d)

failed to find that Defendants JOHN C.
TENNIS and RANDY R. LOZOYA’s actions
were inconsistent, uncompliant, or not
conforming with Defendants CITY OF
SACRAMENTO and SACRAMENTO
POLICE DEPARTMENT policies;

e)

failed to find that Defendants JOHN C.
TENNIS and RANDY R. LOZOYA’s actions
were inconsistent, uncompliant, or not
conforming with mandatory training
provided by the Commission on Peace Officer
Standards and Training;

f)

failed to admonish Defendants JOHN C.
TENNIS and RANDY R. LOZOYA in
connection with Joseph Mann’s killing;
and/or

g)

failed to enact new or different policies, or to
amend existing policies, that would prevent
use of unreasonable force, specifically against
persons suffering from mental illness, in the
future.

111. Defendant SAMUEL D. SOMERS JR.’s
actions and inactions were motivated by evil motive or
intent, involved reckless or callous indifference to
Plaintiffs ROBERT MANN SR., VERN MURPHY-

App. 81
MANN, and DEBORAH MANN’s First and Fourteenth
Amendment rights secured by the U.S. Constitution, or
were wantonly or oppressively done.
112. As a direct and proximate result of
Defendants CITY OF SACRAMENTO, SACRAMENTO
POLICE DEPARTMENT, and SAMUEL D. SOMERS
JR.’s actions and inactions, Plaintiffs ROBERT MANN
SR., VERN MURPHY-MANN, and DEBORAH MANN
suffered injuries entitling them to receive
compensatory damages against Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, and SAMUEL D. SOMERS JR., and
punitive damages against Defendant SAMUEL D.
SOMERS JR.
WHEREFORE, Plaintiffs ROBERT MANN SR.,
VERN MURPHY-MANN, and DEBORAH MANN pray
for relief as hereunder appears.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs ROBERT MANN SR.,
VERN MURPHY-MANN, and DEBORAH MANN seek
Judgment as follows:
1.
For an award of compensatory, general, and
special damages against Defendants CITY OF
SACRAMENTO, SACRAMENTO POLICE
DEPARTMENT, SAMUEL D. SOMERS JR., JOHN C.
TENNIS, and RANDY R. LOZOYA, according to proof
at trial;
2.
For an award of exemplary/punitive damages
against Defendants SAMUEL D. SOMERS JR., JOHN
C. TENNIS, and RANDY R. LOZOYA, in an amount

App. 82
sufficient to deter and to make an example of them,
because their actions and/or inactions, as alleged, were
motivated by evil motive or intent, involved reckless or
callous indifference to federally protected rights, or
were wantonly or oppressively done;
3.
For an award of reasonable attorneys’ fees
and costs, pursuant to 42 U.S.C. § 1988, and any other
statute as may be applicable; and
4.
For an award of any other further relief, as
the Court deems fair, just, and equitable, including an
order referring the killing of Joseph Mann to the U.S.
Department of Justice for prosecution of Defendants
JOHN C. TENNIS and RANDY R. LOZOYA for
violation of Joseph Mann’s civil and constitutional
rights.
Dated: December 10, 2018
Respectfully Submitted,
By:/s/Mark E. Merin
Mark E. Merin
Paul H. Masuhara
LAW OFFICE OF MARK E. MERIN
1010 F Street, Suite 300
Sacramento, California 95814
Telephone: (916) 443-6911
Facsimile: (916) 447-8336
Attorneys for Plaintiffs
ROBERT MANN SR., VERN
MURPHY-MANN, and DEBORAH
MANN

App. 83
JURY TRIAL DEMAND
A JURY TRIAL IS DEMANDED on behalf of
Plaintiffs ROBERT MANN SR., VERN MURPHYMANN, and DEBORAH MANN.
Dated: December 10, 2018
Respectfully Submitted,
By: /s/Mark E. Merin
Mark E. Merin
Paul H. Masuhara
LAW OFFICE OF MARK E. MERIN
1010 F Street, Suite 300
Sacramento, California 95814
Telephone: (916) 443-6911
Facsimile: (916) 447-8336
Attorneys for Plaintiffs
ROBERT MANN SR., VERN
MURPHY-MANN, and DEBORAH
MANN

App. 84
EXHIBIT A

App. 85
______________
APPENDIX I
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-15483
D.C. No. 2:17-cv-01201-WBS-DB
U.S. District Court for Eastern California,
Sacramento
[Filed June 18, 2020]
______________________________________
ROBERT MANN, Sr.; et al.,
)
)
Plaintiffs-Appellants,
)
)
and
)
)
ZACHARY MANN and WILLIAM MANN,)
)
Plaintiffs,
)
)
v.
)
)
SACRAMENTO POLICE
)
DEPARTMENT; SAMUEL D.
)
SOMERS, Jr.,
)
)
Defendants,
)
)
and
)

App. 86
JOHN C. TENNIS; et al.,

)
)
Defendants-Appellees.
)
______________________________________ )
MANDATE
The judgment of this Court, entered April 30, 2020,
takes effect this date.
This constitutes the formal mandate of this Court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedure.
Costs are taxed against the appellees in the amount
of $81.90.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Quy Le
Deputy Clerk
Ninth Circuit Rule 27-7

